Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   COMPARING PHARMACY
     REIMBURSEMENT:
MEDICARE PART D TO MEDICAID




                    Daniel R. Levinson
                     Inspector General

                      February 2009
                     OEI-03-07-00350
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                   S U M M A R Y


                  OBJECTIVE
                  1. To compare Medicare Part D and Medicaid pharmacy
                     reimbursement amounts for selected drugs at the national level.

                  2. To compare the components of Part D and Medicaid pharmacy
                     reimbursement amounts (i.e., ingredient cost and dispensing fee)
                     for selected drugs in five States.


                  BACKGROUND
                  This study compares pharmacy reimbursement for two Federal health
                  care programs: Medicare Part D and Medicaid. It does not compare
                  total program expenditures and does not examine the impact of
                  rebates or post-point-of-sale price concessions.

                  Medicare Part D coverage is provided through private drug plans
                  offered by plan sponsors. Under Federal guidelines, Part D sponsors
                  independently negotiate pharmacy reimbursement and price
                  concessions with manufacturers and pharmacies. Unlike Part D,
                  State Medicaid agencies administer Medicaid and reimburse
                  pharmacies for drugs. States, in conjunction with the Federal
                  Government, determine pharmacy reimbursement under broad
                  Federal guidelines. States also receive federally mandated Medicaid
                  drug rebates and may negotiate with manufacturers for additional
                  rebates.

                  Beneficiaries enrolled in Medicare’s voluntary drug benefit typically
                  obtain drugs from pharmacies. Pharmacy reimbursement under
                  Part D is based on negotiated prices. Negotiated prices are made up
                  of three elements: ingredient cost, dispensing fee, and sales tax.
                  Ingredient costs are usually based on the average wholesale price
                  (AWP) discounted by a specified percentage or maximum allowable
                  cost set by the plan sponsors.

                  Medicaid beneficiaries also typically receive covered drugs through
                  pharmacies, which are reimbursed for these drugs by State Medicaid
                  agencies. Most States typically calculate reimbursement based upon
                  the AWP discounted by a specified percentage plus a dispensing fee.
                  For certain drugs, States also use the Federal upper limit or State
                  maximum allowable cost programs, which establish ceiling prices for
                  certain multiple-source drugs.



OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   i
E X E C U T I V E                       S U           M M A R Y


                   The Deficit Reduction Act of 2005 (DRA) would have (1) expanded the
                   number of drugs subject to Federal upper limit amounts, (2) changed
                   the basis for the calculation of Federal upper limit amounts to
                   average manufacturer prices (AMP), and (3) required the Centers for
                   Medicare & Medicaid Services (CMS) to share AMP data with States.
                   However, an injunction from a Federal district court and the July
                   2008 passage of the Medicare Improvements for Patients and
                   Providers Act of 2008 (MIPPA) delayed the implementation of these
                   new requirements. Therefore, Federal upper limits are calculated
                   using the prior formula based on the lowest published price (i.e., AWP
                   or wholesale acquisition cost), which the Office of Inspector General
                   (OIG) has found to result in inflated payments.

                   We compared the average unit reimbursement amount (the sum of
                   ingredient costs and dispensing fees) between Part D and Medicaid at
                   the national level (i.e., data from all States). We also compared the
                   individual components of reimbursement amount (i.e., ingredient
                   costs and dispensing fees) between Part D and Medicaid for five
                   selected States. For this review, we selected 40 single-source
                   (i.e., drugs available from one manufacturer) and 39 multiple-source
                   (i.e., drugs available from more than one manufacturer) drugs with
                   high Part D and/or Medicaid expenditures in the third and fourth
                   quarters of 2006.


                   FINDINGS
                   Nationally, the average Part D and Medicaid pharmacy
                   reimbursement amounts were similar for most selected
                   single-source drugs. Based on data from all States, there was less
                   than a 5-percent difference between Medicare Part D and Medicaid
                   pharmacy reimbursement amounts for most single-source drugs
                   under review (34 of 40). At the median, the Medicaid reimbursement
                   amount was 0.6 percent less than the Part D amount for the selected
                   drugs.

                   The average unit ingredient costs of both Medicaid and Part D were
                   also very similar for the single-source drugs in the five States under
                   review. However, Medicaid dispensing fees in each of the five States
                   exceeded the average Part D dispensing fees for these single-source
                   drugs by at least 40 percent.




 OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   ii
E X E C U T I V E                       S U           M M A R Y


                   Nationally, the average Medicaid pharmacy reimbursement amounts
                   typically exceeded the average Part D reimbursement amounts for
                   selected multiple-source drugs. Based on data from all States,
                   Medicaid pharmacy reimbursement amounts exceeded Part D pharmacy
                   reimbursement amounts by at least 10 percent for 28 of the
                   39 multiple-source drugs under review. Medicaid reimbursed less than
                   Part D, on average, for just three of these drugs. At the median, the
                   Medicaid reimbursement amount was 17 percent greater than the
                   Part D amount for the 39 selected multiple-source drugs.

                   In all five selected States, the Medicaid ingredient cost exceeded the
                   average Part D ingredient cost for more than half of the multiple-source
                   drugs under review. Some factors that may contribute to the differences
                   between Medicaid and Part D pharmacy reimbursement in the five
                   States include differences in pharmacy reimbursement methodologies
                   and in the use of maximum allowable cost programs.

                   For all five States, the Medicaid dispensing fee exceeded the average
                   Part D dispensing fee for these multiple-source drugs by at least
                   55 percent. In two of five States, the Medicaid dispensing fee was more
                   than double the average Part D dispensing fee.


                   CONCLUSION
                   We found that Part D and Medicaid pharmacy reimbursement amounts
                   for most of the single-source drugs that we reviewed were similar;
                   however, Medicaid reimbursement amounts for the multiple-source
                   drugs that we reviewed were typically higher than Part D amounts.

                   Congress took action to reduce reimbursement for multiple-source
                   drugs in the Medicaid program through provisions in the DRA. These
                   provisions would have expanded the number of drugs subject to
                   Federal upper limits and reduced the Federal upper limit amounts for
                   these multiple-source drugs (including 14 under review in this study).
                   The provisions would have also granted States access to AMP data.
                   However, a Federal judge issued an injunction to prevent the
                   implementation of AMP-based Federal upper limits and State access
                   to AMP data. In addition, because of MIPPA, CMS is prohibited from
                   establishing Federal upper limit amounts based on AMPs or sharing
                   AMP data prior to October 1, 2009. As a result, Federal upper limits
                   and Medicaid reimbursement amounts are still based on published
                   prices, which previous OIG work has found to result in inflated
                   payments for multiple-source drugs.

 OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   iii
E X E C U T I V E                       S U           M M A R Y



                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS agreed with the methodology and concurred with the findings in
                   this report. CMS reiterated that the DRA mandated that Federal upper
                   limit amounts be based on AMPs and that those AMPs be publicly
                   posted to ensure transparency. CMS stated that it believes that as a
                   result, until the DRA provisions are implemented, Medicaid pharmacy
                   reimbursement will continue to be inflated. However, CMS noted that
                   provisions of MIPPA prohibit it from posting AMPs publicly until
                   October 1, 2009, and require it to continue calculating Federal upper
                   limit amounts based on published prices. In addition, CMS stated that
                   further work by OIG on dispensing fees would be beneficial.

                   CMS made one technical comment on the report regarding the
                   classification of a single-source drug. Based on this comment, we
                   conducted additional analysis and made revisions to the report, where
                   appropriate.




 OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   iv
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    Nationally, the average Part D and Medicaid pharmacy
                    reimbursement amounts were similar for most selected
                    single-source dugs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                    Nationally, the average Medicaid pharmacy reimbursement
                    amounts typically exceeded the average Part D
                    reimbursement amounts for selected multiple-source drugs . . . . 13


         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                    Agency Comments and Office of Inspector General Response . . . 17


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                    A: Medicare Part D Drug Coverage. . . . . . . . . . . . . . . . . . . . . . . . 18

                    B: Medicaid Pharmacy Reimbursement and Dispensing Fees
                       for Selected States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                    C: Differences in Pharmacy Reimbursement for Selected
                       Single-Source and Multiple-Source Drugs . . . . . . . . . . . . . . . . 22

                    D: Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  1. To compare Medicare Part D and Medicaid pharmacy
                     reimbursement amounts for selected drugs at the national level.

                  2. To compare the components of Part D and Medicaid pharmacy
                     reimbursement amounts (i.e., ingredient cost and dispensing fee)
                     for selected drugs in five States.


                  BACKGROUND
                  This study compares pharmacy reimbursement for two Federal health
                  care programs: Medicare Part D and Medicaid. It does not compare
                  total program expenditures and does not examine the impact of
                  rebates or post-point-of-sale price concessions.

                  Medicare Part D coverage is provided through private drug plans
                  offered by plan sponsors. Under Federal guidelines, Part D sponsors
                  independently negotiate pharmacy reimbursement and price
                  concessions with manufacturers and pharmacies. Unlike Part D,
                  State Medicaid agencies administer Medicaid and reimburse
                  pharmacies for drugs. States, in conjunction with the Federal
                  Government, determine pharmacy reimbursement under broad
                  Federal guidelines. States also receive federally mandated Medicaid
                  drug rebates and may negotiate with manufacturers for additional
                  rebates.
                  Medicare Part D Drug Coverage
                  The Medicare Prescription Drug, Improvement, and Modernization
                  Act of 2003 created the Medicare Prescription Drug Program, known
                  as Medicare Part D, to provide an optional drug benefit for all
                  Medicare beneficiaries. Part D sponsors provide drug coverage to the
                  25 million beneficiaries who had enrolled in the program as of
                  January 2008. 1 Part D expenditures totaled more than $49 billion in
                  2007, the second year of the benefit. 2




                      1 Part D 2008 Enrollment Information. Available online at
                  http://www.cms.hhs.gov/PrescriptionDrugCovGenIn/. Accessed June 3, 2008.
                      2 “2008 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and
                  Federal Supplementary Medical Insurance Trust Funds,” p. 5. Available online at
                  http://www.cms.hhs.gov/ReportsTrustFunds/downloads/tr2008.pdf. Accessed April 16,
                  2008.



OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   1
I N T R O D        U C T            I O N


                    Part D sponsors offer benefits through (1) stand-alone prescription
                    drug plans (PDP) and (2) Medicare Advantage prescription drug plans
                    (MA-PD), which provide integrated medical coverage, including drugs,
                    through managed care. See Appendix A for a more detailed
                    description of drug coverage under Medicare Part D.
                    Medicare Part D Drug Reimbursement
                    Beneficiaries enrolled in Medicare’s voluntary drug benefit typically
                    obtain drugs from pharmacies. Pharmacy reimbursement under
                    Part D is based on negotiated prices. The Centers for Medicare &
                    Medicaid Services (CMS) defines negotiated prices (or point-of-sale
                    prices) as prices for covered Part D drugs that: (1) are available to
                    beneficiaries at the point of sale at network pharmacies; (2) are
                    reduced by those discounts, direct or indirect subsidies, rebates, other
                    price concessions, and direct or indirect remunerations that the
                    Part D sponsor has elected to pass through to Part D enrollees at the
                    point of sale; and (3) include any pharmacy dispensing fees. 3 These
                    prices are typically based on agreements between manufacturers,
                    plan sponsors, and their affiliated contractors. 4 Negotiated prices, or
                    pharmacy reimbursement, include two main elements: 5
                    1. Ingredient cost. The ingredient cost is the amount paid to the
                       pharmacy for the drug itself. Dispensing fees or other costs are
                       not to be included in this amount.

                    2. Dispensing fee. The dispensing fee is the amount paid to the
                       pharmacy for dispensing the drug. This amount includes only
                       those activities related to the transfer of the drug from the
                       pharmacy to the beneficiary, including charges associated with
                       mixing the drug, delivery, and overhead. 6
                    The negotiated price that the sponsors and beneficiaries pay
                    pharmacies for the ingredient cost of the drug is usually based on the
                    average wholesale price (AWP) discounted by a specified percentage

                        3 42 CFR § 423.100.
                        4 There may be additional price concessions between plan sponsors, manufacturers, and
                    other stakeholders that are not included in the negotiated price (e.g., rebates). These price
                    concessions are not typically shared with the pharmacy.
                        5 Negotiated prices for Medicare Part D also include a data element for sales tax.
                    However, we did not include sales tax in our price comparison.
                        6 Requirements for Submitting Prescription Drug Event Data. Available online at
                    http://www.cms.hhs.gov/DrugCoverageClaimsData/Downloads/PDEGuidance.pdf. Accessed
                    July 15, 2008.



 OEI-03-07-00350    C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   2
I N T R O D        U C T            I O N


                    or maximum allowable cost plus a dispensing fee, according to CMS
                    staff. 7 The portion of the negotiated price paid by the plan sponsor
                    and the portion paid by the beneficiary are determined by the plan’s
                    cost-sharing rules.
                    Medicaid Drug Coverage
                    Title XIX of the Social Security Act (the Act) established Medicaid, a
                    program administered by States and financed with State and Federal
                    funds. Medicaid pays for medical and health-related assistance for
                    certain vulnerable and needy individuals and families.

                    All 50 States and the District of Columbia provide coverage for drugs
                    under the Medicaid program. Medicaid expenditures for drugs
                    totaled over $21 billion in 2006. 8
                    Medicaid Drug Reimbursement
                    Medicaid beneficiaries typically receive covered drugs through
                    pharmacies, which are reimbursed for these drugs by State Medicaid
                    agencies. Federal regulations require, with certain exceptions, that
                    each State Medicaid agency’s reimbursement for covered outpatient
                    drugs not exceed (in the aggregate) the lower of the estimated
                    acquisition cost for drugs (i.e., the ingredient cost) plus a reasonable
                    dispensing fee or the provider’s usual and customary charge to the
                    public for the drugs. 9
                    1. Ingredient costs. Medicaid payment for ingredient costs is based
                       on the estimated acquisition cost. Regulations define estimated
                       acquisition cost to be the State’s “best estimate” of the price
                       generally and currently paid by providers for the drug. 10 CMS
                       allows States flexibility in determining what constitutes the
                       ingredient cost of drugs covered by their Medicaid programs;
                       therefore, Medicaid reimbursement varies across States. Most
                       States calculate the estimated acquisition cost based on the AWP


                        7 AWPs are listed in commercial publications, derived from manufacturer-reported data
                    for both brand and generic drugs, and not defined in law or regulation. Previous Office of
                    Inspector General (OIG) work found that AWPs are often significantly higher than the
                    prices that drug manufacturers, wholesalers, and similar entities actually charge the
                    physicians and suppliers that purchase these drugs.
                      8 This amount is calculated using national summary data for 2006 and includes both
                    Federal and State payments. Rebates collected by States under the Medicaid drug rebate
                    program (section 1927 of the Act) were not subtracted from this figure.
                        9 42 CFR § 447.512.
                        10 42 CFR § 447.502.




 OEI-03-07-00350    C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   3
I N T R O D        U C T            I O N


                           discounted by a specified percentage. 11 12 For certain drugs,
                           States also use the Federal upper limit or State maximum
                           allowable cost programs in setting reimbursement amounts.

                    2. Dispensing fees. State Medicaid agencies also pay “reasonable”
                       dispensing fees to pharmacies for pharmacy services. Each State
                       determines its Medicaid dispensing fees, which range from
                       $1.75 to $12.50 per prescription. 13
                    Federal upper limit program. The Federal upper limit program was
                    created to ensure that the Federal Government acts as a prudent buyer
                    of drugs by taking advantage of current market prices for
                    multiple-source drugs (i.e., drugs available from more than one
                    manufacturer). 14 This program establishes a ceiling price that, in the
                    aggregate, limits Medicaid payments. Prior to January 1, 2007, Federal
                    regulation set the Federal upper limit amount at 150 percent of the
                    lowest price published in the national compendia for therapeutically
                    equivalent products that can be purchased by pharmacists in quantities
                    of 100 tablets or capsules, plus a reasonable dispensing fee.15
                    OIG has found that the published prices on which Federal upper limit
                    amounts were based often substantially exceeded the acquisition
                    costs. 16 Based in part on OIG’s work, section 6001(a) of the Deficit
                    Reduction Act of 2005 (DRA) required significant changes to the
                    Federal upper limit program, including changes to the calculation of
                    Federal upper limit amounts. In January 2008, Federal upper limit
                    amounts were to be based on 250 percent of the lowest reported


                        11 “Medicaid Prescription Reimbursement Information by State – Quarter Ending
                    December 2006.” Available online at
                    http://www.cms.hhs.gov/MedicaidDrugRebateProgram/downloads/RxReimbursementRate
                    December2006.pdf. Accessed July 15, 2008.
                      12 A small number of States base Medicaid reimbursement on wholesaler acquisition cost
                    plus a markup percentage.
                       13 This range excludes dispensing fees for home IV therapy. “Medicaid Prescription
                    Reimbursement Information by State – Quarter Ending December 2006.” Available online
                    at
                    http://www.cms.hhs.gov/MedicaidDrugRebateProgram/downloads/RxReimbursementRate
                    December2006.pdf. Accessed on July 15, 2008.
                      14 Available online at http://www.cms.hhs.gov/FederalUpperLimits. Accessed June 2,
                    2008.
                        15 42 CFR § 447.332.
                        16 “Comparison of Medicaid Federal Upper Limit Amounts to Average Manufacturer
                    Prices,” OEI-03-05-00110, June 2005; “Deficit Reduction Act of 2005: Impact on the
                    Medicaid Federal Upper Limit Program,” OEI-03-06-00400, June 2007.



 OEI-03-07-00350    C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   4
I N T R O D        U C T            I O N


                    average manufacturer price (AMP) for each drug rather than
                    150 percent of the lowest price published in national compendia.
                    AMP is a statutorily defined price, which is based on actual sales
                    transactions. 17 Additional provisions in the DRA would have
                    expanded the number of drugs subject to Federal upper limit amounts
                    and required CMS to share AMP data with States.

                    However, in December 2007, a Federal judge issued a preliminary
                    injunction to prevent the implementation of AMP-based Federal
                    upper limits. 18 Further, on July 15, 2008, the Medicare
                    Improvements for Patients and Providers Act of 2008 (MIPPA),
                    P.L. No. 110-275, was enacted. As a result of this legislation, CMS is
                    prohibited from establishing Federal upper limit amounts based on
                    AMPs or sharing AMP data with States prior to October 1, 2009.

                    State maximum allowable cost programs. Many States have implemented
                    maximum allowable cost programs to limit reimbursement amounts for
                    certain drugs. A maximum allowable cost is a ceiling price that applies
                    to a group of multiple-source drugs. Individual States determine which
                    drugs are included in their programs and the methods by which the
                    maximum allowable cost for a drug is calculated.

                    Rebates. For Federal payments to be available for covered outpatient
                    drugs provided under Medicaid, section 1927(a)(1) of the Act requires
                    drug manufacturers to enter into rebate agreements with the Secretary
                    of the Department of Health and Human Services and pay quarterly
                    rebates to State Medicaid agencies. Under these rebate agreements,
                    manufacturers must provide CMS with the AMP for each of their
                    national drug codes. The quarterly rebate for single-source drugs is
                    generally based on the greater of 15.1 percent of the AMP or the
                    difference between the AMP and the best price. 19 The rebate amount
                    for generic drugs is 11 percent of the AMP.




                      17 Section 1927(k)(1) of the Act defines AMP as the average price paid to the
                    manufacturer by wholesalers in the United States for drugs distributed to the retail
                    pharmacy class of trade.
                        18 Civil Action No. 1:07cv02017 (RCL).
                        19 Pursuant to section 1927(c)(1)(C) of the Act, best price is the lowest price available
                    from the manufacturer during the rebate period to any wholesaler, retailer, provider, health
                    maintenance organization, nonprofit entity, or government entity within the United States,
                    with certain exceptions. Further, the Federal Medicaid rebate formula for brand name
                    drugs also includes an additional calculation using an inflation factor.



 OEI-03-07-00350    C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   5
I N T R O D        U C T            I O N


                    Related Office of Inspector General Work
                    Federal upper limit program. In 2004 and 2005, OIG issued four reports
                    detailing potential problems with the Federal upper limit program. 20
                    These reports focused on two main concerns: (1) qualified drugs were
                    not being included on the Federal upper limit list in a timely manner
                    and (2) Federal upper limit amounts often greatly exceeded pharmacy
                    acquisition costs. For example, we found that Federal upper limit
                    amounts were five times higher than average AMPs (a figure that we
                    used as an estimate of pharmacy acquisition costs) in the third quarter
                    of 2004. Based in part on this work, the DRA required that Medicaid
                    Federal upper limits be based on 250 percent of the lowest AMP rather
                    than on 150 percent of the lowest price published in the national
                    compendia.
                    A June 2007 OIG report assessed the potential effect of AMP-based
                    Federal upper limits. 21 According to this report, pre-DRA Federal
                    upper limit amounts substantially exceeded estimated average
                    pharmacy acquisition costs for 25 selected drugs in the second quarter
                    of 2006 and would decrease considerably under the new calculation
                    method established by the DRA. 22
                    Part D payment. A January 2008 OIG report (1) analyzed the
                    relationship between Part D payments to pharmacies and the
                    pharmacies’ drug acquisition costs and (2) estimated Part D dispensing
                    fees and compared them with Medicaid dispensing fees. 23 This report
                    found that Medicare Part D payments, excluding dispensing fees,
                    exceeded the pharmacies’ drug acquisition costs by an estimated
                    18 percent when including rebates that drug wholesalers paid to
                    pharmacies. In addition, the average Medicaid dispensing fee was
                    $2 more than the average Part D dispensing fee.

                        20 “Omission of Drugs From the Federal Upper Limit List in 2001” (OEI-03-02-00670,
                    February 2004); “Addition of Qualified Drugs to the Federal Upper Limit List”
                    (OEI-03-04-00320, December 2004); “Comparison of Medicaid Federal Upper Limit
                    Amounts to Average Manufacturer Prices” (OEI-03-05-00110, June 2005); and “How
                    Inflated Published Prices Affect Drugs Considered for the Federal Upper Limit List”
                    (OEI-03-05-00350, September 2005).
                        21 “Deficit Reduction Act of 2005: Impact on the Medicaid Federal Upper Limit Program”
                    (OEI-03-06-00400, June 2007).
                        22 At the time OIG conducted its assessment, CMS had not fully developed its outlier
                    policy. Therefore, for the purposes of OIG’s report, Federal upper limit amounts were
                    calculated without regard to outlier AMPs.
                      23 “Review of the Relationship Between Medicare Part D Payments to Local, Community
                    Pharmacies and the Pharmacies’ Drug Acquisition Costs” (A-06-07-00107), January 2008.



 OEI-03-07-00350    C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   6
I N T R O D        U C T            I O N



                    METHODOLOGY
                    Scope
                    This study compared Part D and Medicaid pharmacy reimbursement
                    for selected drugs by (1) comparing the average total reimbursement
                    amount (the sum of ingredient costs and dispensing fees) between
                    Part D and Medicaid at the national level (i.e., data from all
                    States 24 ) and (2) comparing the individual components of the total
                    reimbursement amount (i.e., ingredient costs and dispensing fees)
                    between Part D and Medicaid for five selected States.

                    For this review, we selected 25 single-source (i.e., drugs available
                    from one manufacturer) and 25 multiple-source (i.e., drugs available
                    from more than one manufacturer) drugs with the highest Medicare
                    Part D expenditures as well as 25 single-source drugs and
                    25 multiple-source drugs with the highest Medicaid expenditures in
                    the third and fourth quarters of 2006. Because of overlap in the
                    selected drugs, there were initially 43 single-source and
                    37 multiple-source drugs to be included in this review. 25 26 However,
                    after the drugs were selected, it was determined that three drugs
                    identified by the compendium as single-source products actually had
                    generic versions available during most of the review period.
                    Therefore, for this analysis, we considered these to be multiple-source
                    drugs. Similarly, it was determined that one drug identified by the
                    compendium as multiple-source was actually a single-source drug.
                    This particular drug would not have been selected had it been
                    initially classified as single-source and was removed from our




                        24 Arizona does not participate in the Medicaid Drug Rebate Program; therefore, there
                    are no Medicaid data from this State included in this analysis. Further, we identified
                    errors in Medicaid utilization data from two additional States. We excluded Medicaid
                    utilization data from these two States from this analysis.
                       25 We excluded from this review drugs that could not be identified, could not be identified
                    as single source or multiple source, or did not have utilization in both programs (i.e., they
                    had Part D utilization but no Medicaid utilization).
                        26 For our initial selection of single-source and multiple-source drugs, we used drug-type
                    data from Red Book, a national drug compendium that contains drug product and pricing
                    information.




 OEI-03-07-00350    C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   7
I N T R O D        U C T            I O N


                    analysis. 27 As a result the final selection included 40 single-source
                    drugs and 39 multiple-source drugs. 28
                    We examined Part D reimbursement by PDPs only; we did not
                    examine reimbursement data from MA-PDs and we excluded
                    noncovered drugs.
                    Data Collection
                    Medicare Part D. We first obtained prescription drug event (PDE)
                    records with dates of service in the third and fourth quarters of 2006
                    from CMS for all States. 29 We then aggregated the data to identify
                    total pharmacy reimbursement by drug. The PDE records contained
                    only final action claims and data for both the ingredient cost and the
                    dispensing fee for each claim. We identified the Part D drugs with
                    the highest expenditures (i.e., the sum of ingredient cost plus
                    dispensing fee) using the PDE data and drug type data from the
                    national drug compendium, known as the Red Book.

                    Medicaid. We first downloaded State Medicaid payment, utilization,
                    and dispensing fee data for all States with dates of service in the third
                    and fourth quarters of 2006 from CMS’s Web site. We then
                    aggregated the data to determine national payment and utilization by
                    drug. We identified the multiple-source drugs with the highest total
                    pharmacy reimbursement (i.e., the sum of ingredient cost plus
                    dispensing fee) using the Medicaid data and drug type data from the
                    Red Book.
                    Data Analysis
                    National analysis. We first calculated the average unit reimbursement
                    amount for selected drugs with dates of service in the third and fourth
                    quarters of 2006 based on data from all States. To calculate the
                    national Medicare Part D average unit cost for selected drugs, we
                    divided the total reimbursement (i.e., the sum of ingredient cost plus



                      27 This drug would not have been selected because the total expenditure threshold for the
                    25 single-source drugs was substantially higher than the threshold for multiple-source
                    drugs.
                        28 The drugs selected for this report accounted for 37 percent of total Part D expenditures
                    and 30 percent of total Medicaid expenditures during the third and fourth quarters of 2006.
                        29 Every time a beneficiary fills a prescription covered under Part D, plans must submit
                    a summary called the PDE record. The PDE record contains drug cost and payment data
                    that enable CMS to administer the Part D benefit. See Appendix A for a more detailed
                    description of PDE data.



 OEI-03-07-00350    C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   8
I N T R O D        U C T            I O N


                    dispensing fee) by the number of units dispensed for each drug. 30 We
                    calculated the national average Medicaid unit payment amount for
                    each selected drug (i.e., based on data from all States) by dividing
                    total reimbursement (i.e., the sum of ingredient cost plus dispensing
                    fees) by the number of units dispensed for each drug.

                    We compared the average Part D and Medicaid drug reimbursement
                    amount for the selected drugs and calculated the percentage
                    difference between programs for each drug. In addition, we
                    calculated the median percentage difference for all single-source and
                    all multiple-source drugs.
                    State analysis. We calculated the average unit ingredient cost and
                    average dispensing fee for selected drugs based on data from five
                    States: Arkansas, Hawaii, Illinois, New York, and Wyoming. We
                    chose these States because they (1) had relatively straightforward
                    reimbursement methodologies for determining ingredient costs and
                    dispensing fees, (2) represented a range of reimbursement levels for
                    ingredient costs, (3) varied in total Medicaid reimbursement for
                    drugs, and (4) represented different geographic regions. 31 See
                    Appendix B for information on each of these States.

                    To calculate the average unit ingredient cost and average dispensing
                    fee under Part D, we first identified all PDE data for the selected
                    drugs in the selected States. We then calculated the average unit
                    ingredient cost for Part D drugs in each State by dividing total
                    ingredient cost by total units dispensed for each selected drug. We
                    calculated the average Part D dispensing fee per prescription for each
                    State for single-source and multiple-source drugs by dividing total
                    dispensing fees by total number of prescriptions. 32
                    Medicaid utilization data aggregate ingredient cost and dispensing
                    fees but do not provide separate data on each. Therefore, we
                    calculated the total Medicaid ingredient cost for each drug by
                    subtracting total dispensing fees from total expenditures. To


                        30 For most drugs in this review, unit refers to a pill (e.g., tablet, capsule).
                        31 These States have one reimbursement amount and dispensing fee for all drugs or a
                    small number of reimbursement amounts and dispensing fees based on whether the drug is
                    a brand or generic product. One State has an additional reimbursement amount for drugs
                    dispensed at specialized pharmacies.
                       32 For the analysis of PDE data from five States, we excluded all PDE records where the
                    dispensing fee was equal to zero.



 OEI-03-07-00350    C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   9
I N T R O D        U C T            I O N


                    calculate total dispensing fees, we multiplied the State’s dispensing
                    fee from the fourth quarter of 2006 by the total number of
                    prescriptions for each drug. 33 We calculated the average State
                    Medicaid ingredient cost by dividing total ingredient cost by the total
                    units dispensed for the selected drugs.

                    We compared average Part D ingredient costs and average dispensing
                    fees for each of the selected drugs to average Medicaid unit ingredient
                    costs and Medicaid dispensing fees for five selected States. We
                    calculated the percentage difference for each amount between the
                    programs. 34 We also examined Part D and Medicaid reimbursement
                    for drugs with Federal upper limit amounts.
                    Limitations
                    This study compares pharmacy reimbursement for two Federal health
                    care programs: Medicare Part D and Medicaid. It compares only the
                    amounts paid to pharmacies for selected drugs under both programs.
                    The study does not compare total program expenditures and does not
                    examine the impact of rebates or post-point-of-sale price concessions.

                    The findings in this report apply only to the 40 single-source and
                    39 multiple-source drugs we reviewed. The findings are not
                    projectable to all drugs covered under Part D and Medicaid. We did
                    not verify the accuracy or completeness of CMS’s data or the accuracy
                    of data in the national compendium. In addition, we analyzed
                    Medicaid data summarized by drug; i.e., we did not analyze
                    claims-level data. Therefore, we were unable to analyze the effect of
                    usual and customary charges in the Medicaid program.
                    Standards
                    This study was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.



                        33 The Medicaid dispensing fees for the five States included in this review were the same
                    for both the third and fourth quarters of 2006. Further, for the two States with more than
                    one dispensing fee, we used the brand drug dispensing fee for single-source drugs and the
                    generic dispensing fee for multiple-source drugs.
                       34 We compared reimbursement only for drugs that had both Part D and Medicaid
                    utilization in all five States (i.e., if one State did not have both Part D and Medicaid
                    utilization for a particular drug, we excluded that drug from all State data in our
                    comparison). As a result, the State comparison included 39 single-source drugs and
                    34 multiple-source drugs.



 OEI-03-07-00350    C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   10
Δ       F I N D I N G S

                                                          Based on data from all States,
    Nationally, the average Part D and Medicaid           there was less than a 5-percent
pharmacy reimbursement amounts were similar               difference between Medicare Part D
         for most selected single-source drugs            and Medicaid pharmacy
                                                          reimbursement amounts for most of
                      the single-source drugs under review in the third and fourth quarters of
                      2006. At the median, the Medicaid reimbursement amount was
                      0.6 percent less than the Part D amount for the selected drugs.
                      For 34 of the 40 single-source drugs under review, the difference
                      between the Medicare Part D and Medicaid reimbursement amount was
                      no more than 5 percent (18 of these had a difference of 1 percent or
                      less). Only 1 of 40 single-source drugs included in our analysis had a
                      difference between Part D and Medicaid reimbursement that exceeded
                      10 percent. Table 1 illustrates the differences between Part D and
                      Medicaid reimbursement for the 40 single-source drugs that we
                      reviewed. For additional details concerning how pharmacy
                      reimbursement for individual single-source drugs compared in both
                      percentage and dollar terms, please see Appendix C.

                         Table 1. Comparison of Average Medicare Part D and Medicaid Unit
                         Reimbursement Amounts for the 40 Single-Source Drugs Under Review


                         Difference in Medicare Part D and Medicaid Reimbursement                                             Single-Source
                                                                                                                                      Drugs

                         Medicaid > 50% higher than Part D                                                                               0
                         25% < Medicaid < 50% higher than Part D                                                                         0
                         10% < Medicaid < 25% higher than Part D                                                                         0
                         5% < Medicaid < 10% higher than Part D                                                                          1
                         1% < Medicaid < 5% higher than Part D                                                                           6
                         0.01% < Medicaid < 1% higher than Part D                                                                        9
                         Medicaid reimbursement equal to Part D reimbursement*                                                           1
                         0.01% < Medicaid < 1% lower than Part D                                                                         8
                         1% < Medicaid < 5% lower than Part D                                                                           10
                         5% < Medicaid < 10% lower than Part D                                                                           4
                         10% < Medicaid < 25% lower than Part D                                                                          1
                         Medicaid > 25% lower than Part D                                                                                0
                              Total number of drugs                                                                                     40


                         *Difference between Medicaid and Part D pharmacy reimbursement was less than one-tenth of one cent.

                         Source: OIG analysis of third- and fourth-quarter 2006 Medicaid utilization and Part D PDE data.




    OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID              11
      F    I N D I N G               S


                                    Pharmacy reimbursement for ingredient costs was similar for both programs
                                    in the five selected States
                                    Overall, the average ingredient cost for both Medicaid and Part D
                                    pharmacy reimbursement was similar for single-source drugs under
                                    review in the five States. For over four-fifths of the selected
                                    single-source drugs in each State, the difference between Medicaid and
                                    Part D ingredient costs was less than 10 percent.
                                    However, Medicaid dispensing fees exceeded average Part D dispensing
                                    fees in the five selected States
                                    In each of the five States, Medicaid dispensing fees exceeded the average
                                    Part D dispensing fees for the selected single-source drugs by at least
                                    40 percent. In two of the five States, the Medicaid dispensing fee was
                                    more than double the average Part D dispensing fee. However, because of
                                    the relatively high cost of most single-source drugs, dispensing fees
                                    typically account for a very small percentage of total cost for these drugs. 35
                                    See Table 2 for a more detailed comparison of Medicaid and Part D
                                    dispensing fees for single-source drugs.


Table 2. Dispensing Fees for the Single-Source Drugs Under Review


                                                                                                                                                  Percentage Difference
                              Medicaid Dispensing Fees for                          Average Part D Dispensing Fees                          Between Medicaid and Part D
State                                  Single-Source Drugs                                 for Single-Source Drugs                                     Dispensing Fees

Arkansas                                                         $5.51                                                       $2.54                               117%
Hawaii                                                           $4.67                                                       $3.01                                55%
Illinois                                                         $3.40                                                       $2.42                                40%
New York                                                         $3.50                                                       $2.43                                44%
Wyoming                                                          $5.00                                                       $2.20                               127%

Source: CMS’s Web site and OIG analysis of third- and fourth-quarter 2006 Part D PDE data.




                                        35 Part D dispensing fees for selected single-source drugs in these five States accounted
                                    for only 2 percent of pharmacy reimbursement (i.e., ingredient cost and dispensing fee) for
                                    these drugs. Similarly, Medicaid dispensing fees for selected single-source drugs accounted
                                    for only 2 percent of pharmacy reimbursement for the five States.



           OEI-03-07-00350          C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID                          12
F   I N D I N G        S



         Nationally, the average Medicaid pharmacy          Based on data from all States, the
    reimbursement amounts typically exceeded the            average Medicaid pharmacy
                                                            reimbursement amount exceeded
        average Part D reimbursement amounts for
                                                            the average Part D pharmacy
                   selected multiple-source drugs
                                                            reimbursement amount by at least
                     10 percent for 28 of the 39 multiple-source drugs under review.
                     Medicaid reimbursed less than Part D, on average, for just three of
                     these 39 drugs. At the median, the Medicaid reimbursement amount
                     was 17 percent greater than the Part D amount for selected
                     multiple-source drugs. Table 3 illustrates the reimbursement
                     differences for the 39 multiple-source drugs under review. For
                     additional details concerning how pharmacy reimbursement for
                     individual multiple-source drugs compared in both percentage and
                     dollar terms, please see Appendix C.
                      Fourteen of the thirty-nine multiple-source drugs in this review are
                      included on the Federal upper limit list. The average Medicaid
                      reimbursement amount for all but one of the Federal upper limit drugs
                      exceeded the average Part D reimbursement amount. At the median,
                      the Medicaid reimbursement amount was 32 percent greater than the
                      Part D reimbursement amount for these 14 drugs.

                         Table 3. Comparison of Average Medicare Part D and Medicaid Unit
                         Reimbursement Amounts for the 39 Multiple-Source Drugs Under Review


                         Difference in Medicare Part D and Medicaid Reimbursement                                                 Multiple-
                                                                                                                              Source Drugs

                         Medicaid > 50% higher than Part D                                                                               4
                         25% < Medicaid < 50% higher than Part D                                                                        12
                         10% < Medicaid < 25% higher than Part D                                                                        12
                         5% < Medicaid < 10% higher than Part D                                                                          4
                         1% < Medicaid < 5% higher than Part D                                                                           3
                         0.01% < Medicaid < 1% higher than Part D                                                                        1
                         Medicaid reimbursement equal to Part D reimbursement                                                            0
                         0.01% < Medicaid < 1% lower than Part D                                                                         1
                         1% < Medicaid < 5% lower than Part D                                                                            0
                         5% < Medicaid < 10% lower than Part D                                                                           0
                         10% < Medicaid < 25% lower than Part D                                                                          1
                         25% < Medicaid < 50% lower than Part D                                                                          0
                         Medicaid > 50% lower than Part D                                                                                1
                              Total number of drugs                                                                                     39

                         Source: OIG analysis of third- and fourth-quarter 2006 Medicaid utilization and Part D PDE data.



    OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID              13
F   I N D I N G        S


                      In all five selected States, Medicaid’s ingredient cost was higher than the
                      average Part D ingredient cost for the multiple-source drugs under review
                      In all five States, the Medicaid ingredient cost for more than half of the
                      multiple-source drugs under review exceeded the average Part D
                      ingredient cost. At the median, the Medicaid ingredient cost in these
                      States was between 2 percent and 29 percent greater than the Part D
                      cost for selected drugs.

                      Several factors may contribute to the variation across the five States in
                      Part D and Medicaid pharmacy reimbursement for multiple-source
                      drugs. Each State develops its own Medicaid reimbursement formula;
                      therefore, Medicaid reimbursement amounts vary across States. In
                      addition, States have the flexibility to establish maximum allowable
                      cost programs to set a cap on pharmacy reimbursement for certain
                      drugs.
                      Medicaid dispensing fees for the multiple-source drugs under review
                      exceeded average Part D dispensing fees in all five selected States
                      In each of the five States, the Medicaid dispensing fee exceeded the
                      average Part D dispensing fee for multiple-source drugs by at least
                      55 percent. In two of the five States, the Medicaid dispensing fee was
                      more than double the average Part D dispensing fee. Because
                      reimbursement amounts for multiple-source drugs are typically lower
                      than those for single-source drugs, dispensing fees make up a larger
                      percentage of total cost. 36 See Table 4 on the next page for a more
                      detailed comparison of Medicaid and Part D dispensing fees for the
                      multiple-source drugs under review.




                          36 Part D dispensing fees for the selected multiple-source drugs in the five selected States
                      accounted for 5 percent of total pharmacy reimbursement (i.e., ingredient cost and
                      dispensing fee). Medicaid dispensing fees for these multiple-source drugs accounted for
                      8 percent of total pharmacy reimbursement.



    OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   14
F   I N D I N G                S




Table 4. Dispensing Fees for the Multiple-Source Drugs Under Review


                                                                                                                                            Percentage Difference
                              Medicaid Dispensing Fees for                            Average Part D Dispensing Fees                  Between Medicaid and Part D
State                                Multiple-Source Drugs                                  for Multiple-Source Drugs                            Dispensing Fees

Arkansas                                                            $5.51                                                     $2.66                         107%
Hawaii                                                              $4.67                                                     $3.00                         56%
Illinois                                                            $4.60                                                     $2.59                         78%
New York                                                            $4.50                                                     $2.72                         65%
Wyoming                                                             $5.00                                                     $2.43                         106%
Source: CMS’s Web site and OIG analysis of third- and fourth-quarter 2006 Part D PDE data.




    OEI-03-07-00350          C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID                     15
F   I N D I N G        S
Δ       C O N C L U S I O N S




                      This study compares pharmacy reimbursement for two Federal health
                      care programs: Medicare Part D and Medicaid. It compares only the
                      amount paid to pharmacies for selected drugs under both programs.
                      This study does not compare total program expenditures and does not
                      examine the impact of rebates or post-point-of-sale price concessions.

                      We compared total reimbursement (ingredient cost plus dispensing fee)
                      between Medicare Part D and Medicaid based on data from all States.
                      We also compared Part D and Medicaid ingredient costs and dispensing
                      fees for five selected States. We found that Part D and Medicaid
                      pharmacy reimbursement amounts for most single-source drugs that we
                      reviewed were similar; however, Medicaid reimbursement amounts for
                      multiple-source drugs that we reviewed were typically higher than
                      Part D amounts. In all five States under review, the average Medicaid
                      ingredient costs of most multiple-source drugs under review exceeded
                      the average Part D ingredient costs. In addition, we found that
                      Medicaid dispensing fees were substantially higher than the average
                      Part D dispensing fee for the single and multiple-source drugs under
                      review in all five States.

                      Congress took action to reduce multiple-source drug prices in the
                      Medicaid program through provisions in the DRA. These provisions
                      would have expanded the number of drugs subject to Federal upper
                      limits and reduced the Federal upper limit amounts for these
                      multiple-source drugs (including 14 under review in this study). These
                      provisions would have also granted States access to AMP data which, in
                      turn, would have allowed States to base Medicaid drug reimbursement
                      on AMPs. However, a Federal judge issued a preliminary injunction to
                      prevent the implementation of AMP-based Federal upper limits and
                      AMP-based Medicaid reimbursement amounts. In addition, because of
                      MIPPA, CMS is prohibited from establishing Federal upper limit
                      amounts based on AMPs or sharing AMP data with States prior to
                      October 1, 2009. As a result, Federal upper limits and Medicaid
                      reimbursement amounts are still based on published prices, which
                      previous OIG work has found to result in inflated payments for
                      multiple-source drugs.




    OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   16
C O   N C L        U S I O            N



                     AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                     RESPONSE
                     CMS agreed with the methodology and concurred with the findings in
                     this report. CMS reiterated that the DRA mandated that Federal upper
                     limit amounts be based on AMPs and that those AMPs be publicly
                     posted to ensure transparency. CMS stated that it believes that as a
                     result, until the DRA provisions are implemented, Medicaid pharmacy
                     reimbursement will continue to be inflated. However, CMS noted that
                     provisions of MIPPA prohibit it from posting AMPs publicly until
                     October 1, 2009, and require it to continue calculating Federal upper
                     limit amounts based on published prices. In addition, CMS stated that
                     further work by OIG on dispensing fees would be beneficial.

                     CMS made one technical comment on the report regarding the
                     classification of a single-source drug. Based on this comment, we
                     conducted additional analysis and made revisions to the report, where
                     appropriate.

                     The full text of CMS’s comments is provided in Appendix D.




 OEI-03-07-00350     C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   17
Δ   A P P E N D I X ~ A

                  Medicare Part D Drug Coverage
                  Part D sponsors are required by the Medicare Prescription Drug,
                  Improvement, and Modernization Act of 2003 to offer, at a minimum,
                  a basic prescription drug benefit that is either the standard
                  prescription drug benefit (described below) or is actuarially equivalent
                  to the standard benefit. 37 Most beneficiaries who elect Part D
                  coverage are responsible for certain costs, which may include a
                  monthly premium, an annual deductible, and coinsurance.

                  In 2008, the standard drug benefit had a beneficiary deductible of
                  $275. In the initial phase of the Part D benefit, after beneficiaries
                  pay the deductible, they contribute 25-percent coinsurance toward
                  their drug costs and the plan pays the remaining 75 percent until
                  combined beneficiary and plan payments reach $2,510. After
                  combined payments reach $2,510, beneficiaries enter the coverage gap
                  phase of the benefit in which they are responsible for 100 percent of
                  their drug costs. The catastrophic coverage phase begins when a
                  beneficiary’s out-of-pocket costs reach $4,050. This amount includes a
                  beneficiary’s deductible and coinsurance payments. Once
                  beneficiaries reach $4,050 in out-of-pocket costs, they contribute
                  approximately 5 percent in coinsurance toward their drug costs. Of
                  the remaining 95 percent of drug costs, the Part D sponsors are
                  responsible for approximately 15 percent and Medicare pays
                  80 percent.

                  Part D plans may also offer enhanced plan benefit packages.
                  Enhanced plans include benefits such as lower (or no) deductibles and
                  coverage during the coverage gap phase.
                  Plan Bids and Subsidy Payments
                  Before the beginning of the plan year, sponsors are required to submit
                  a bid for each plan that they intend to offer.38 The bid is an estimate
                  of the average costs to provide the basic benefit per beneficiary.

                  Throughout the year, the Centers for Medicare & Medicaid Services
                  (CMS) makes prospective payments to sponsors for three subsidies
                  based on sponsors’ approved bids. These subsidies are: (1) the direct




                    37 “Actuarially equivalent” means that the plan’s benefit must be at least of a dollar
                  value equivalent to that of the standard benefit.
                      38 42 CFR § 423.265.




OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   18
A   P   P E N D       I X ~           A


                      subsidy, (2) the reinsurance subsidy, and (3) the low-income
                      cost-sharing subsidy.

                      Direct subsidy. The direct subsidy, together with beneficiary
                      premiums, is designed to cover the sponsor’s cost of providing the
                      benefit to each beneficiary.

                      Reinsurance subsidy. The reinsurance subsidy covers the Federal
                      Government’s share of drug costs for beneficiaries who have reached
                      catastrophic coverage.

                      Low-income cost-sharing subsidy. The low-income cost-sharing subsidy
                      covers the Federal Government’s portion of the cost-sharing payments
                      for certain low-income beneficiaries.

                      At the end of the plan year, CMS reconciles these prospective
                      payments with the actual costs incurred by the plan sponsors. 39
                      Prescription Drug Event Data
                      As a condition of payment, all Part D plan sponsors submit data and
                      information necessary for CMS to determine and make payment. 40
                      Every time a beneficiary fills a prescription covered under Part D,
                      plans must submit a summary called the prescription drug event
                      (PDE) record. The PDE record contains drug cost and payment data
                      that enable CMS to administer the Part D benefit. 41 Part D plan
                      sponsors submit one PDE record each time a Part D covered drug is
                      dispensed to its enrollees, including those events in which enrollees
                      have 100 percent cost sharing (i.e., they are in the coverage gap or
                      deductible phase).

                      CMS uses the National Council for Prescription Drug Programs
                      industry standard for collecting PDE data. The PDE data contain
                      information on the beneficiary, plan, pharmacy, and prescribing
                      physician, as well as information about the event including the date,
                      quantity dispensed, number of days supplied, national drug code,
                      control number, and the amount reimbursed to the pharmacy by the
                      plan. The amount reimbursed to the pharmacy (i.e., negotiated price)



                          39 42 CFR § 423.343.
                          40 Social Security Act, §§ 1860D-15(c)(1)(C) and (d)(2), 42 CFR § 423.322.
                          41 “Requirements for Submitting Prescription Drug Event Data.” Available online at
                      http://www.cms.hhs.gov/DrugCoverageClaimsData/Downloads/PDEGuidance.pdf. Accessed
                      May 29, 2008.



    OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   19
A   P   P E N D       I X ~           A


                      consists of three fields: ingredient cost paid, dispensing fee paid, and
                      total amount attributed to sales tax.
                      Dual Eligibles
                      In 2006, more than 6 million Medicare beneficiaries were full-benefit
                      dual eligibles, i.e., beneficiaries enrolled in both Medicare and
                      Medicaid. Until December 31, 2005, dual eligibles received outpatient
                      drug benefits through Medicaid. However, on January 1, 2006,
                      Federal financial participation ended for Medicaid drug coverage for
                      dual eligibles. 42 Instead, dual eligibles now receive drug coverage
                      under Part D through either a prescription drug plan or a Medicare
                      Advantage Prescription Drug Plan.




                          42 42 U.S.C. § 1396u-5 (2003).




    OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   20
  Δ            A P P E N D I X ~ B




Medicaid Pharmacy Reimbursement and Dispensing Fees for Selected States


                                   Basis for State                                                                Maximum                State Rank by Total
State                                   Medicaid                        Dispensing Fee                       Allowable Cost                   Medicaid Drug
                                 Reimbursement*                                                                    Program                   Expenditures**

                              Average wholesale
                                price (AWP)-20%
                                         (generic)
Arkansas                       AWP-14% (brand)                                   $5.51                                             Yes                   21
Hawaii                               AWP-10.5%                                   $4.67                                             Yes                   42
                             AWP-25% (generic)                          $4.60 (generic)
Illinois                       AWP-12% (brand)                           $3.40 (brand)                                             Yes                    7
                            AWP-12.75% (brand)
                                     AWP-16.5%
                                         (generic)
                                        AWP-12%
                                 (specialized HIV                       $4.50 (generic)
New York                             pharmacies)                         $3.50 (brand)                                             No                     1
Wyoming                                 AWP-11%                                  $5.00                                             Yes                   45

Sources: Centers for Medicare & Medicaid Services Web site and Office of Inspector General (OIG) analysis of State Medicaid expenditures for
drugs.

*This is the method that each State uses to calculate the ingredient cost portion for Medicaid reimbursement.

**Denotes State rank by total Medicaid expenditures for drugs in the third and fourth quarters of 2006 according to OIG analysis.




           OEI-03-07-00350            C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID                    21
Δ          A P P E N D I X ~ C


Differences in Pharmacy Reimbursement for Selected Single-Source Drugs*
                                                                              Percentage Difference per                           Dollar Difference per
                                                                              Unit Between Medicaid and                           Unit Between Medicaid
                                                                              Part D Pharmacy                                     and Part D Pharmacy
Drug                                                                          Reimbursement**                                     Reimbursement**
Alendronate Sodium 70 mg                                                                           0.85%                                         $0.153
Amlodipine Besylate 5 mg                                                                                          0.16%                          $0.002
Amlodipine Besylate 10 mg                                                                                         1.96%                          $0.041
Aripiprazole 5 mg                                                                                                -5.03%                         -$0.555
Aripiprazole 10 mg                                                                                               -3.40%                         -$0.374
Aripiprazole 15 mg                                                                                               -2.23%                         -$0.245
Atorvastatin Calcium 20 mg                                                                                        0.39%                          $0.014
Atorvastatin Calcium 40 mg                                                                                        0.41%                          $0.014
Atorvastatin Calcium 10 mg                                                                                        0.44%                          $0.011
Celecoxib 200 mg                                                                                                  1.13%                          $0.034
***Clopidogrel Bisulfate 75 mg                                                                                    8.08%                          $0.302
Divalproex Sodium 500 mg                                                                                         -3.47%                         -$0.083
Divalproex Sodium 500 mg (extended release)                                                                      -2.72%                         -$0.062
Donepezil Hydrochloride 10 mg                                                                                    -8.23%                         -$0.412
Emtricitabine/Tenofovir Disoproxil Fumarate 200 mg-300
mg                                                                                                                1.19%                          $0.308
Esomeprazole Magnesium 40 mg                                                                                      1.78%                          $0.080
Ezetimibe 10 mg                                                                                                   0.68%                          $0.018
Fluticasone Propionate/Salmeterol Xinafoate                                                                       0.49%                          $0.013
Insulin Glargine, Recombinant 100 U/mL                                                                           -0.10%                         -$0.007
Lansoprazole 30 mg                                                                                               -0.39%                         -$0.018
Lopinavir/Ritonavir 200 mg-50 mg                                                                                  3.54%                          $0.197
Memantine Hydrochloride 10 mg                                                                                    -9.33%                         -$0.217
Montelukast Sodium 5 mg                                                                                           0.19%                          $0.006
Montelukast Sodium 10 mg                                                                                          1.27%                          $0.039
Olanzapine 10 mg                                                                                                 -0.98%                         -$0.102
Olanzapine 15 mg                                                                                                 -0.82%                         -$0.127
Olanzapine 20 mg                                                                                                  0.00%                         -$0.001
Palivizumab 100 mg/mL                                                                                          -15.49%                        -$216.212
Pantoprazole Sodium 40 mg                                                                                        -0.82%                         -$0.030
Quetiapine Fumarate 100 mg                                                                                       -1.93%                         -$0.061
Quetiapine Fumarate 200 mg                                                                                       -1.10%                         -$0.065
Quetiapine Fumarate 300 mg                                                                                       -0.58%                         -$0.045
Risedronate Sodium 35 mg                                                                                         -2.26%                         -$0.409
Risperidone 1 mg                                                                                                 -4.64%                         -$0.178
Risperidone 2 mg                                                                                                 -1.23%                         -$0.077
Risperidone 3 mg                                                                                                 -0.91%                         -$0.067
Rosiglitazone Maleate 4 mg                                                                                        0.49%                          $0.015
Tamsulosin Hydrochloride 0.4 mg                                                                                  -0.70%                         -$0.015
Topiramate 100 mg                                                                                                -5.69%                         -$0.270
Zolpidem Tartrate 10 mg                                                                                          -1.18%                         -$0.043

*Some of the selected single-source products had generic versions become available after the time period under review.
**For most drugs in this review, unit refers to one pill. Negative numbers indicate that Part D pharmacy reimbursement exceeded
Medicaid pharmacy reimbursement.
***Clopidogrel bisulfate had a generic version approved in January 2006. The manufacturer marketed the generic version of this drug
beginning on August 8, 2006. However, litigation between the brand and generic manufacturers resulted in an injunction on
August 31, 2006, barring additional sales by the manufacturer of the generic drug. Because the generic drug was sold by the
manufacturer for less than 1 out of the 6 months under review, it is classified as a single-source drug for the period under review.
Source: Office of Inspector General analysis of third- and fourth-quarter 2006 Medicaid utilization data and Part D prescription drug
event data.
         OEI-03-07-00350             C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID                22
        A     P    P E N D             I X ~              C


Differences in Pharmacy Reimbursement for Selected Multiple-Source Drugs
                                                                                Percentage Difference per                           Dollar Difference per
                                                                                Unit Between Medicaid and                           Unit Between Medicaid
                                                                                Part D Pharmacy                                     and Part D Pharmacy
Drug                                                                            Reimbursement*                                      Reimbursement*
Acetaminophen/Oxycodone Hydrochloride 325 mg-10 mg                                                                 13.68%                          $0.137
Albuterol 0.09 mg/Actuation                                                                                        25.69%                          $0.210
Albuterol Sulfate 0.083%                                                                                         -21.85%                          -$0.028
Amoxicillin/Clavulanate Potassium 600 mg/5 mL-42.9
mg/5 mL                                                                                                            14.04%                          $0.051
Amoxicillin/Clavulanate Potassium 875 mg-125 mg                                                                    33.44%                          $0.778
Azithromycin 250 mg                                                                                                38.82%                          $1.784
Bupropion Hydrochloride 150 mg                                                                                     17.12%                          $0.198
Clozapine 100 mg                                                                                                   14.47%                          $0.295
Desmopressin Acetate 0.2 mg                                                                                         0.33%                          $0.011
Diltiazem Hydrochloride 240 mg                                                                                      7.85%                          $0.095
Ethinyl Estradiol/Norgestimate                                                                                     15.55%                          $0.158
Fentanyl 75 mcg/HR                                                                                                 29.67%                          $8.270
Fentanyl 100 mcg/HR                                                                                                30.39%                         $10.992
Fentanyl 50 mcg/HR                                                                                                 32.50%                          $5.813
Fexofenadine Hydrochloride 180 mg                                                                                  16.27%                          $0.282
Fluticasone Propionate 0.05 mg/Actuation                                                                           20.64%                          $0.722
Gabapentin 600 mg                                                                                                  63.33%                          $0.602
Gabapentin 300 mg                                                                                                123.25%                           $0.465
Immune Globulin 100 mg/mL                                                                                          36.35%                          $3.270
Insulin Human Isophane (NPH) 100 U/mL                                                                               2.99%                          $0.101
Insulin Human Isophane/Insulin Human Regular 70 U/mL-
30 U/mL                                                                                                              3.62%                         $0.123
Lisinopril 20 mg                                                                                                   39.25%                          $0.119
Loratadine 10 mg                                                                                                 -83.77%                          -$2.245
Lorazepam 1 mg                                                                                                     13.13%                          $0.038
Lovastatin 40 mg                                                                                                   39.72%                          $0.379
Megestrol Acetate 40 mg/mL                                                                                          5.87%                          $0.023
Metformin Hydrochloride 500 mg                                                                                     56.74%                          $0.104
Nifedipine 60 mg                                                                                                   19.46%                          $0.312
Omeprazole 20 mg                                                                                                   44.64%                          $0.525
Oxycodone Hydrochloride 40 mg                                                                                       5.75%                          $0.177
Oxycodone Hydrochloride 80 mg                                                                                      10.03%                          $0.597
Paroxetine Hydrochloride 20 mg                                                                                     81.70%                          $0.728
Phenytoin Sodium, Extended 100 mg                                                                                   3.18%                          $0.009
Polyethylene Glycol 3350 17 GM/Dose                                                                                -0.92%                         -$0.001
Potassium Chloride 20 MEQ                                                                                          24.88%                          $0.073
Sertraline Hydrochloride 100 mg                                                                                     9.01%                          $0.204
Simvastatin 20 mg                                                                                                  25.96%                          $0.916
Simvastatin 40 mg                                                                                                  27.16%                          $0.955
Warfarin Sodium 5 mg                                                                                               12.67%                          $0.054

*For most drugs in this review, unit refers to one pill. Negative numbers indicate that Part D pharmacy reimbursement exceeded
Medicaid pharmacy reimbursement.
Source: Office of Inspector General analysis of third- and fourth-quarter 2006 Medicaid utilization data and Part D prescription drug
event data.




          OEI-03-07-00350             C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID                 23
Δ   A P P E N D I X ~ D


     Agency Comments




OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   24
A   P   P E N D       I X ~           D




    OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   25
A   P   P E N D       I X ~           D
Δ       A C K N O W L E D G M E N T S



                      This report was prepared under the direction of Robert A. Vito,
                      Regional Inspector General for Evaluation and Inspections in the
                      Philadelphia regional office, and David E. Tawes, Director, Prescription
                      Drug Pricing Unit.

                      Edward K. Burley served as the team leader for this study. Other
                      principal Office of Evaluation and Inspections staff from the
                      Philadelphia regional office who contributed to the report include
                      Eric M. Biersmith; other central office staff who contributed include
                      Eddie Baker, Jr., Dave J. Graf, Kevin Manley, Matthew S. McMullen,
                      and Cynthia Thomas.




    OEI-03-07-00350   C O M P A R I N G P H A R M A C Y R E I M B U R S E M E N T: M E D I C A R E PA R T D   TO   MEDICAID   26
